                                 NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL




                                          10 January 2001



                -C
To:                  The File

FROM:           i
RE:             ,I   Case Closeout, #I-00080014

1. This case was opened on 8128100 on information received From an anonymous source
   via US'PS letter. The anonymous complainant alleged that the PI on NSF Award
                   had failed to declare that the Senior Advisor on the award was her
   husband, and that she was paying him as a consultant in addition to his stipulated
   salary i s Advisor.

2. A review of the award file and all pertinent documents relating to this award held at
   the Cornunity College                                                      revealed
   no evikence of impropriety. NSF-OIG will work with               d plan an outreach
               in the next few months in order to assist th         in their
   understanding of NSF regulations. The           has begun work on drafting their own
   COI policy.
            1


3.    This investigation is closed.
